                       October 17, 1997

MEMORANDUM FOR THE SECRETARY


FROM:          John C. Layton
               Inspector General


SUBJECT:       INFORMATION: "Audit of Funding for Advanced
               Radioisotope Power Systems"


BACKGROUND:

The Department of Energy's (Department) Advanced
Radioisotope Power Systems Program maintains the sole
national capability and facilities to produce radioisotope
power systems for the National Aeronautics and Space
Administration (NASA), the Department of Defense, and other
Federal agencies. For the past seven years the program
emphasis has been on providing power systems for NASA's
Cassini mission to Saturn, which was launched earlier this
month. We initiated this audit to determine whether the
Department received proper reimbursement from NASA for the
radioisotope power systems produced.

DISCUSSION:

Although the Department's policy is to receive reimbursement
for fuel used in NASA's radioisotope power systems, the
Department has not recovered any fuel costs for the Cassini
mission. This occurred because the Department's Office of
Nuclear Energy, Science and Technology did not establish an
interagency agreement with NASA for recovery of fuel costs.
As a result, the Department has not collected about $46.3
million from NASA for fuel used in Cassini radioisotope
power systems. We recommended that the Department establish
an interagency agreement with NASA and recover the total
cost of fuel provided for the Cassini systems.


Attachment

cc: Deputy Secretary
    Under Secretary



                  U.S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                      AUDIT OF FUNDING FOR

              ADVANCED RADIOISOTOPE POWER SYSTEMS



      The Office of Inspector General wants to make the
  distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be
    available electronically through the Internet at the
              following alternative addresses:

           Department of Energy Headquarters Gopher
                       gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home
                            Page
                  http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on
  the Customer Response Form attached to the report.

            This report can be obtained from the
                  U.S. Department of Energy
       Office of Scientific and Technical Information
                         P.O. Box 62
                 Oak Ridge, Tennessee 37831


Report Number:   DOE/IG-0413                Eastern Regional Audit Office
Date of Issue:   October 17, 1997           Oak Ridge, TN 37830


                     AUDIT OF FUNDING FOR
              ADVANCED RADIOISOTOPE POWER SYSTEMS




                        TABLE OF CONTENTS



                                                              Page

           SUMMARY   . . . . . . . . . . . . . . . . . . .      1

PART I -   APPROACH AND OVERVIEW    . . . . . . . . . . . .     2
          Introduction      . . . . . . . . . . . . . . . .   2

          Scope and Methodology     . . . . . . . . . . . .   2

          Prior Audit Reports     . . . . . . . . . . . . .   3

          Background     . . . . . . . . . . . . . . . . . . 3

PART II - FINDING AND RECOMMENDATIONS . . . . . . . . . . 4

          Fuel Costs Not Reimbursed . . . . . . . . . . . 4

PART III - MANAGEMENT AND AUDITOR COMMENTS . . . . . . . .7
                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
                     OFFICE OF AUDIT SERVICES



                       AUDIT OF FUNDING FOR
                ADVANCED RADIOISOTOPE POWER SYSTEMS


Audit Report:     DOE/IG-0413


                                SUMMARY

     The U.S. Department of Energy's (Department) Advanced
Radioisotope Power Systems Program maintains the sole
national capability and facilities to produce radioisotope
power systems for the National Aeronautics and Space
Administration (NASA), the Department of Defense, and other
Federal agencies. Projects are conducted with these
agencies in accordance with written agreements and are
dependent on cost sharing by the user agencies. For the
past seven years the program emphasis has been on providing
power systems for NASA's Cassini mission to Saturn, which
was launched earlier this month. We initiated this audit to
determine whether the Department received proper
reimbursement from NASA for the radioisotope power systems
produced.

     Although the Department's policy is to receive
reimbursement for fuel used in NASA's radioisotope power
systems, the Department has not recovered any fuel costs for
the Cassini mission. This occurred because the Department's
Office of Nuclear Energy, Science and Technology did not
establish an interagency agreement with NASA for recovery of
fuel costs. As a result, the Department has not collected
about $46.3 million from NASA for fuel used in Cassini
radioisotope power systems. We recommended that the
Director, Office of Nuclear Energy, establish an interagency
agreement with NASA and recover the total cost of fuel
provided for the Cassini systems.

     Management concurred with the findings and
recommendations, stating that negotiations with NASA will be
revitalized after the launch of the Cassini mission.



                                     Signed
                                     Office of Inspector General



                                PART I
                     APPROACH AND OVERVIEW


INTRODUCTION

     The Atomic Energy Act of 1954, as amended, established
the charter under which the U.S. Department of Energy
(Department) has provided radioisotope power systems for the
National Aeronautics and Space Administration (NASA), the
Department of Defense, and other Federal agencies over the
past 30 years. Specifically, the Department provides
radioisotope power systems development, demonstration,
testing, and delivery. Funding for these power systems is
provided jointly by the Department and customer agencies.
The purpose of the audit was to determine whether the
Department was properly reimbursed for radioisotope power
systems produced for NASA.


SCOPE AND METHODOLOGY

     The audit was performed at the Office of Nuclear
Energy, Science and Technology (Office of Nuclear Energy) in
Germantown, Maryland, from May 19, 1997, through
July 7, 1997. To accomplish the audit objective, we:

  o   Reviewed Federal laws and regulations governing
      reimbursement for materials and services provided to
      other Federal agencies;

  o   Evaluated Departmental interagency funding agreements
      with NASA for radioisotope power systems;

  o   Analyzed budget requests and appropriations for the
      Department's Advanced Radioisotope Power Systems Program;
      and

  o   Held discussions with personnel from the Department's
      Office of Nuclear Energy regarding the Advanced Radioisotope
      Power Systems Program.

    The audit was performed in accordance with generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and regulations
to the extent necessary to satisfy the audit objective. Accordingly,
we assessed Departmental controls over funding for the radioisotope
power systems for NASA. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. We did not conduct a
reliability assessment of computer-processed data because only a
very limited amount of computer-processed data was used during the
audit.

     We held an exit conference with the Acting Associate Director,
Office of Engineering and Technology Development in the Office of
Nuclear Energy, Science and Technology.
PRIOR AUDIT REPORTS

     We identified two prior audit reports that dealt specifically
with the Department's Advanced Radioisotope Power Systems Program.
In October 1993, the General Accounting Office issued Report
GAO/RCED-94-6, NUCLEAR SCIENCE -- More Planning Needed to Support
Future Needs for Electric Power in Space. The report recommended
that the Department examine the alternatives for long-term supply
of radioisotope power systems in view of the downsizing and closure
of the Mound Plant. Additionally, the Office of Inspector General
issued Report DOE/IG-0408, Audit of Shutdown and Transition of the
Mound Plant, in June 1997.   The report concluded that the Office
of Nuclear Energy was continuing radioisotope power system
operations at the Mound Plant without adequately considering the
overall economic goals of the Department.


BACKGROUND

     The Department has provided radioisotope power systems to
user agencies for many years. One of the Department's primary
customers for these systems is NASA. The systems have provided
proven, reliable, maintenance free power for many NASA projects
including the Apollo, Pioneer, Viking, Voyager, Galileo, and
Ulysses missions. The most recent NASA mission supported by the
Department was the Cassini mission to Saturn.

     For the Cassini mission, the Department agreed to deliver
4 radioisotope thermoelectric generators and 157 light weight
radioisotope heater units. The Department began production
during FY 1990 and delivered the systems in May 1997. The total
cost for Cassini's radioisotope power systems was estimated to be
about $264 million, excluding fuel costs. Under the terms of the
agreement, NASA will reimburse the Department $119 million between
FY 1990 and FY 1998. Through FY 1996, NASA reimbursed $114 million
to the Department in accordance with the terms of the agreement.
Also, the Department is to provide support for the Cassini
radioisotope power systems through mission launch.

     The reimbursement from NASA for the Cassini mission was
to be handled in accordance with two interagency agreements.
The first agreement set up the reimbursement requirements
for all Cassini radioisotope power systems costs except fuel
costs. A second agreement was to be non-mission specific
and would cover reimbursements for fuel costs for the
Cassini mission and other future NASA missions. Although
the Cassini mission agreement was completed and implemented,
as described previously, the non-mission specific fuel
agreement was never completed.

                           PART II

                 FINDING AND RECOMMENDATIONS


                  Fuel Costs Not Reimbursed
FINDING

     The Department's policy is to receive full cost
reimbursement for fuel used in NASA's radioisotope power
systems. However, the Department has not received
reimbursement for the fuel used for NASA's Cassini
radioisotope power systems. This occurred because the
Department's Office of Nuclear Energy did not establish an
interagency agreement with NASA for recovery of fuel costs.
As a result, the Department has not collected about $46.3
million from NASA for reimbursement of Cassini mission fuel.


RECOMMENDATIONS

We recommend that the Director, Office of Nuclear Energy,
Science and Technology:

     1. Establish an interagency agreement with NASA
        requiring full cost reimbursement for fuel used
        in radioisotope power systems; and

     2. Recover from NASA the total cost of the fuel
        provided for the Cassini radioisotope power
        systems.


MANAGEMENT REACTION

     Management concurred with the finding and
recommendations and agreed to take corrective action. Part
III of the report provides detailed management and auditor
comments.


                      DETAILS OF FINDING


DEPARTMENTAL POLICY

     The Department's policy is to receive full cost
reimbursement for fuel used in NASA's radioisotope power
systems. Departmental Order 2110.1A requires the Department
to obtain full cost reimbursement less depreciation for
materials or services provided to other Federal agencies.
However, the Office of Nuclear Energy requested a waiver of
this policy for fuel provided for NASA's space missions.
The Office of Nuclear Energy proposed that instead of paying
full cost, NASA should pay an annual amount estimated to be
less than the full cost for fuel. The request was denied in
September 1990, and the Department Controller stated in
February 1991 that any agreement with NASA for fuel
reimbursement should state that the final price will be the
actual, fully-allocated cost determined at the time of
production.
FUEL COSTS NOT RECOVERED

     Despite the Controller's ruling, the Department did not
recover the fuel costs from NASA for the Cassini
radioisotope power systems. The Department began production
on the Cassini mission during FY 1990 and delivered the
radioisotope power systems during May 1997. The Department
received reimbursements annually during this period for non-
fuel costs in accordance with the Cassini agreement with
NASA. However, the Department did not receive any
reimbursements for fuel.


INTERAGENCY AGREEMENT NOT ESTABLISHED

     This occurred because the Office of Nuclear Energy did
not negotiate an agreement with NASA for full recovery of
fuel costs after the Controller's ruling. As of July 7,
1997, the Department had not re-opened negotiations with
NASA to recover the fuel costs for the Cassini radioisotope
power systems. During the audit, the Office of Nuclear
Energy officials stated that they had not aggressively
pursued the fuel agreement with NASA, and that NASA should
have reimbursed the Department for the cost of the fuel used
on the Cassini systems.


ESTIMATE OF FUEL COSTS

     We estimated that the Department should have recovered
about $46.3 million from NASA for fuel used in the Cassini
radioisotope power systems. To produce the Cassini systems,
the Department used approximately 23,503 grams of fuel. In
accordance with the Controller's ruling, the fuel used in
NASA's radioisotope power systems should have been priced at
the fully allocated cost of $1,968 per gram. Therefore, the
Department should have received $46.3 million in
reimbursements for fuel from NASA.


                           PART III

               MANAGEMENT AND AUDITOR COMMENTS

     Management concurred with the finding and
recommendations and stated that negotiations with NASA will
be revitalized after the launch of Cassini planned for
October 1997. Management also stated that the issue of fuel
cost reimbursement had no impact on the overall cost or
schedule for completing the delivery of the radioisotope
power systems for the Cassini mission.

     We considered management's comments to be responsive to
the finding and recommendations. Additionally, we found no
evidence that the issue of fuel cost reimbursement had any
impact on the overall cost or schedule for completing the
delivery of the radioisotope power systems for the Cassini
mission.


                             IG Report No.   DOE/IG-0413




                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope,
          or procedures of the audit or inspection
          would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name _________________________ Date_____________________

Telephone ____________________ Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN:   Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
